                                                                             Report No. DODIG-2014-101



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              AUGUST 13, 2014




                     Delinquent Medical Service
                     Accounts at Brooke Army
                     Medical Center Need Additional
                     Management Oversight




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                              Results in Brief
                              Delinquent Medical Service Accounts at Brooke Army
                              Medical Center Need Additional Management Oversight



August 13, 2014                                 Finding (cont’d)

Objective                                       As a result, BAMC UBO management missed opportunities to
                                                collect approximately $10.4 million in delinquent payments,
Our objective was to determine whether          and use the funds on other valid needs. Unless BAMC UBO
the Military Services and selected military     management improves collection efforts and takes prompt
medical treatment facilities were effectively   and aggressive actions to collect the delinquent debt from
managing medical service accounts that          the MSAs we reviewed and thousands of other delinquent MSAs,
were more than 180 days delinquent by           BAMC UBO will continue to incur rising delinquent balances
transferring the debt to the appropriate        for future MSAs. BAMC UBO has begun taking corrective
debt collection agency or actively pursuing     actions such as transferring claims and contacting patients on
collection. This is the first in a series of    some of the claims in our sample.
reports concerning medical service accounts
(MSAs). This report provides the results
of our review performed at U.S. Army            Recommendations
Brooke Army Medical Center (BAMC). We           We recommend the Commander, BAMC, validate that the
reviewed the 25 highest dollar delinquent       planned medical billing system will prioritize delinquent
MSAs valued at $11.0 million.                   medical service accounts and alert the clerks as to which
                                                accounts require follow-up; the Chief of Staff, U.S. Army Medical

Finding                                         Command, research additional means to increase collections
                                                at BAMC and other Army military medical treatment facilities;
BAMC Uniform Business Office (UBO)              and the Assistant Secretary of Defense (Health Affairs) meet
management did not effectively manage           with Department of Health and Human Services to discuss
delinquent MSAs. As of May 29, 2013, BAMC       reimbursement problems with military medical treatment
UBO management had 15,106 outstanding           facilities and Medicaid.
MSAs, valued at $73.1 million. The accounts
were more than 180 days delinquent but had
not been transferred to the U.S. Treasury.      Management Comments
BAMC UBO management did not transfer            Comments from the Assistant Secretary of Defense (Health
24 of 25 accounts, valued at $10.4 million,     Affairs) and the Chief of Staff, U.S. Army Medical Command
to the U.S. Treasury for collection after the   addressed all of the specifics of the recommendations. We
account was 180 days delinquent. Further,       request that the Chief of Staff, U.S. Army Medical Command
BAMC UBO management did not actively            provide additional comments to the potential monetary benefits
pursue collection for 20 of the delinquent      in response to this report by September 12, 2014. Please see
MSAs, valued at $8.8 million. This occurred     the Recommendations Table on the back of this page.
because, among other reasons, BAMC UBO
management did not have a process in place
to monitor and notify staff of MSAs needing
follow-up.


Visit us at www.dodig.mil                                           DODIG-2014-101 (Project No. D2013-D000CL-0182.000) │ i
                  Recommendations Table
                                                                        Recommendations       No Additional
                                        Management                      Requiring Comment   Comments Required
                      Assistant Secretary of Defense (Health Affairs)                       3
                      Commander, U.S. Army Medical Command                                  2.a, 2.b,
                      Commander, Brooke Army Medical Center                                 1.a, 1.b, 1.c, 1.d, 1.e,
                                                                                            1.f, 1.g, 1.h




ii │ DODIG-2014-101
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                4800 MARK CENTER DRIVE
                             ALEXANDRIA, VIRGINIA 22350-1500

                                                                               August 13, 2014

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)
           	   AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Delinquent Medical Service Accounts at Brooke Army Medical Center Need
	        Additional Management Oversight (Report No. DODIG-2014-101)

We are providing this report for review and comment. We considered management comments
on a draft of this report when preparing the final report. Brooke Army Medical Center Uniform
Business Office management did not effectively manage delinquent medical service accounts.
Unless Brooke Army Medical Center Uniform Business Office management acts to collect
$73.1 million in delinquent debt, and improves its collection process, they will continue to
incur rising delinquent balances for future medical service accounts.

DoD Directive 7650.3 requires that recommendations be resolved promptly. Comments from
the Assistant Secretary of Defense (Health Affairs) and the Chief of Staff, U.S. Army Medical
Command, addressed all of the specifics of the recommendations, and we do not require
additional comments. We request additional comments from the Chief of Staff, U.S. Army
Medical Command, on the potential monetary benefits. We should receive your comments
by September 12, 2014.

Please send a PDF file containing your comments to audcmp@dodig.mil. Copies of your
comments must have the actual signature of the authorizing official for your organization.
We cannot accept the /Signed/ symbol in place of the actual signature. If you arrange to
send classified comments electronically, you must send them over the SECRET Internet
Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to James Degaraff
at (757) 989-1233.




	                                             Amy J. Frontz
	                                             Principal Assistant Inspector General
	                                              for Auditing




                                                                                        DODIG-2014-101 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Criteria____________________________________________________________________________________________2
                  Review of Internal Controls_____________________________________________________________________4

                  Finding. Brooke Army Medical Center is Not Effectively
                  Managing Delinquent Medical Service Accounts _ ___________5
                  Management of Delinquent Medical Service Accounts Needs Improvement _______________6
                  System Needed to Manage and Prioritize Delinquent Medical Service Accounts___________7
                  Patient Data Needed Before Discharge_________________________________________________________7
                  Patients Set Payment Terms Contrary to DoD Regulation____________________________________9
                  Additional Oversight Needed for Medicaid Reimbursements _____________________________ 10
                  FedDebt Administrative Wage Garnishment Tool___________________________________________ 13
                  Management Corrective Actions______________________________________________________________ 14
                  Conclusion______________________________________________________________________________________ 14
                  Management Comments on the Finding and Our Response________________________________ 15
                  Recommendations, Management Comments, and Our Response__________________________ 16
                  Management Comments on Potential Monetary Benefits and Our Response_____________ 21

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 23
                      Review of Documentation and Interviews_______________________________________________ 23
                      Use of Computer-Processed Data _______________________________________________________ 24
                      Use of Technical Assistance_______________________________________________________________ 24
                      Prior Coverage_____________________________________________________________________________ 24
                  Appendix B. Challenge to Medicaid Denials_________________________________________________ 26
                  Appendix C. Results of the 25 Medical Service Accounts Reviewed_______________________ 28
                  Appendix D. Potential Monetary Benefits Table_ ___________________________________________ 29




iv │ DODIG-2014-101
Contents (cont’d)
Management Comments
Assistant Secretary of Defense (Health Affairs)_____________________________________________ 30
U.S. Army Medical Command_________________________________________________________________ 32

Acronyms and Abbreviations______________________________________________ 39




                                                                                                  DODIG-2014-101 │ v
                                                                                                                           Introduction




Introduction
Objective
Our announced objective was to determine whether the Military Services and
selected military medical treatment facilities (MTFs) were effectively managing
medical service accounts (MSAs) that were delinquent by 181  days or more. We
modified our objective to match the criteria and determined whether the military
MTFs properly managed accounts that were more than 180  days delinquent by
transferring the debt to U.S. Treasury or by actively pursuing collection.

We plan to issue a series of reports on delinquent MSAs at selected military MTFs.
This is the first in a series of reports concerning delinquent MSAs.                                      This report
provides the results of our review performed at U.S.  Army Brooke Army Medical
Center (BAMC).             See Appendix  A for the scope and methodology and prior coverage
related to the audit objective.


Background
Brooke Army Medical Center
BAMC is located on Fort Sam Houston in San Antonio, Texas.                                       BAMC’s command
brief states the center’s mission is to promote health and provide quality,
compassionate, patient-centered care while developing healthcare professionals
and optimizing readiness.                     According to the center’s website, San Antonio
Military Medical Center (SAMMC)1 hospital staff provides inpatient care in a
2.1  million-square-foot, 425-bed state-of-the-art military MTF. SAMMC is 1 of only
31 hospitals in the U.S. that hold both Level 1 Trauma certification and American
Burn Association accreditation. The hospital receives more than 5,700  emergency
room visits each month and an average of 8 civilian emergency admissions each
day.       According to U.S. Army Medical Command (MEDCOM), BAMC processed
more than 136,000 claims for care rendered to patients from FY 2011 to FY 2013.
BAMC uses the MSA function to record the billing and collecting of funds for medical
and dental services from Uniformed Services beneficiaries, civilian emergency
patients, and other patients authorized treatment at the center.                                      MSA activities
include the primary-payer billing of individuals and other Government Agencies
for services rendered in military MTFs.

	1	
      SAMMC is the hospital component at the center of the BAMC Command. On September 15, 2011, the San Antonio
      inpatient mission moved to Brooke Army Medical Center and the name was changed to San Antonio Military Medical
      Center. Brooke Army Medical Center retained command and control of the responsibilities and personnel at SAMMC.




                                                                                                                        DODIG-2014-101 │ 1
Introduction



                 U.S. Army Medical Command
                 MEDCOM oversees all Army fixed hospitals both inside and outside of the U.S.,
                 including SAMMC.       According to its website, MEDCOM currently manages a
                 $13  billion budget and cares for more than 3.95  million beneficiaries including
                 active-duty members of all services, retirees, and their family members.


                 Assistant Secretary of Defense for Health Affairs
                 The Assistant Secretary of Defense Health Affairs  [ASD(HA)] is the principal advisor
                 to the Secretary of Defense for all DoD health and force health protection policies,
                 programs, and activities. The ASD(HA) ensures the effective execution of the DoD
                 medical mission by providing and maintaining readiness for medical services to
                 support the members of the Military Services and others entitled to or eligible
                 for DoD medical care and benefits.


                 Texas Medicaid and Healthcare Partnership
                 The Texas Medicaid and Healthcare Partnership  (TMHP) is a coalition of contractors
                 that disburses the Medicaid claims payment for the state of Texas under contract
                 with the Texas Health and Human Services Commission. This Commission oversees
                 the operations of the health and human services system, provides administrative
                 oversight of Texas Health and Human Services Programs, and provides direct
                 administration of several other programs.        Texas Health and Human Services
                 Commission manages the state of Texas Medicaid program. It is bound to certain
                 parameters and operations established by the Center for Medicaid and Children’s
                 Health Insurance Program Services.       The U.S. Department of Health & Human
                 Services controls the Center for Medicare and Medicaid Services. 


                 Criteria
                 Public Law 104-134, Section 31001, “Debt Collection
                 Improvement Act of 1996”
                 The purpose of Public Law 104-134, section 31001, “The Debt Collection
                 Improvement Act of 1996,” is to maximize collections of delinquent debts owed to the
                 Government by ensuring quick action to enforce recovery of debts and the use
                 of all appropriate collection tools.   The law also ensures that debtors have all
                 appropriate due process rights, including the ability to verify, challenge, and
                 compromise claims, and access to administrative appeals procedures which are
                 both reasonable and protect the interests of the U.S.      The law aims to minimize




2 │ DODIG-2014-101
                                                                                              Introduction



the costs of debt collection by consolidating related functions and activities.
Further, the law2 establishes that if a nontax debt or claim owed to the U.S.
has been delinquent by more than 180  days, the head of the executive agency
that administers the program that gave rise to the debt or claim must transfer
the debt or claim to the Secretary of the Treasury.


DoD Financial Management Regulation “Management and
Collection of Individual Debt,” Volume 5, Chapter 28
DoD Financial Management Regulation (DoD FMR), “Management and Collection of
Individual Debt,” volume  5, chapter  28, November 2012, requires DoD Components
to establish and maintain a debt management program to identify, recover, and
collect debts individuals owe to the U.S. The DoD FMR states that DoD Components
must take prompt and aggressive action to recover and collect debts owed to DoD
and must pursue continuing follow-up actions, as necessary, to ensure that debts are
collected. The DoD  FMR also states that, except when a debtor can prove financial
hardship or another reasonable cause exists, installment plans must be at least
$50 each month and enough to liquidate a debt within 3  years or less.                This
chapter also specifies that DoD is required to refer individual debt that has been
delinquent for 180 days to Financial Management Services, Department of Treasury,
for continued collection action in accordance with Title 31, United States Code,
Section 3711.


DoD 6010.15-M, "Military Treatment Facility Uniform
Business Office Manual"
DoD 6010.15-M, "Military Treatment Facility Uniform Business Office (UBO) Manual,"
November 2006 provides guidelines for military MTF business office operation. It
recommends uniform procedures and accounting systems for the management and
follow-up of accounts. The manual incorporates procedures for third party collection
activities, including identification of beneficiaries who have other health insurance,
coordination of benefits, and recovery of claims. It also outlines methods of settling
outstanding accounts receivable and transferring delinquent accounts. The manual
states that a military MTF must charge civilian patients who are not eligible beneficiaries
a reasonable charge, as determined by the Secretary of Defense, for trauma and other
medical care.           The military MTF then must retain and use the amounts collected
for administrative, operating, and equipment costs; readiness training; or trauma
consortium activities.

	2	
      Now codified at Title 31, United States Code, Section 3711.




                                                                                          DODIG-2014-101 │ 3
Introduction



                 Brooke Army Medical Center Memorandum 40-67, “Medical
                 Services Admission and Disposition of Patients”
                 Brooke Army Medical Center Memorandum 40-67, “Medical Services Admission and
                 Disposition of Patients,” April 27, 2011, outlines the responsibilities and procedures
                 for admission, accountability, and disposition for all patients. Non-beneficiary civilian
                 trauma patients are authorized emergency care and admittance as civilian emergencies.
                 During the admission process, patients or family members are required to provide
                 information about private medical insurance to include completing and signing
                 the DD  Form  2569, “Third Party Collection Program – Record of Other Health
                 Insurance.”   The memorandum also requires that all admitted civilian trauma
                 patients physically check-out through the Admissions and Dispositions office.


                 Review of Internal Controls
                 DoD Instruction  5010.40, “Managers’ Internal Control Program Procedures,”
                 May  30,  2013, requires DoD organizations to implement a comprehensive system
                 of internal controls that provides reasonable assurance that programs are
                 operating as intended and to evaluate the effectiveness of the controls.          BAMC
                 UBO management did not effectively manage delinquent medical service accounts.
                 In addition, we identified internal control weaknesses associated with the
                 oversight process, installment payments, and patient data collection in accordance
                 with DoD Instruction  5010.40. We will provide a copy of the report to the senior
                 official responsible for internal controls in the Department of the Army.




4 │ DODIG-2014-101
                                                                                                                          Finding




Finding
Brooke Army Medical Center is Not Effectively
Managing Delinquent Medical Service Accounts

BAMC UBO management did not effectively manage delinquent MSAs.                                              As of
May  29,  2013, 15,106 of BAMC MSAs, valued at $73.1  million, were delinquent
more than 180  days, but were not transferred to the U.S.  Treasury for collection.
We reviewed 25 of the highest dollar MSAs, valued at $11 million, and found that
the BAMC UBO did not transfer 24 of those accounts, valued at $10.4  million, to
the U.S.  Treasury for collection after the account was 180 days delinquent.3
In addition, BAMC UBO management did not perform timely follow-up for 20 of
the delinquent MSAs, valued at $8.8 million.

The large number of delinquent MSAs, including the 25 sample items reviewed,
existed because BAMC UBO management did not have a system in place to monitor
the delinquent MSAs, prioritize the aging accounts, and notify staff of the MSAs
requiring follow-up. Additionally:

             •	 BAMC management did not ensure the collection of complete and accurate
                 patient information before discharge;

             •	 BAMC UBO management allowed patients to set their own payment terms,
                 which was not in compliance with DoD regulations;

             •	 BAMC UBO and MEDCOM did not provide sufficient oversight of
                 Medicaid-eligible MSAs and failed to elevate difficulties in collection
                 from the TMHP to the ASD(HA); and

             •	 MEDCOM            did    not     require       the     use     of    an     administrative   wage
                 garnishment tool.

As a result, BAMC UBO missed opportunities to collect approximately $10.4  million
in delinquent payments due on 24 of the 25 highest dollar delinquent MSAs. These
were funds that could have been applied to administrative, operating and
equipment costs; readiness training; or trauma consortium activities. Unless BAMC
UBO management takes prompt and aggressive actions to pursue collection of
the delinquent debt among the MSAs reviewed, including the $62.5 million for the

	3	
      BAMC UBO did not pursue one MSA, valued at $0.6 million because of an ongoing court case.




                                                                                                                 DODIG-2014-101 │ 5
Finding



                     thousands of additional delinquent MSAs, and makes improvements to its collection
                     process, they will continue to incur rising delinquent balances for future MSAs.


                     Management of Delinquent Medical Service Accounts
                     Needs Improvement
                     Public Law  104-134 and the DoD FMR, require agencies to transfer debts that
                     received proper due process and are more than 180  days old to the U.S.  Treasury
                     for collection. However, management did not transfer the 15,106 accounts to the
                     U.S. Treasury for collection and did not take aggressive action to perform timely
                     follow-up for 20 of the 25 delinquent MSAs we sampled. Table 1 lists the 20 MSAs
                     we reviewed that had no collection efforts for more than 6 months. 4

                     Table 1. Medical Service Accounts Reviewed With No Collection Efforts for 6 Months
                     or More
                                          Months with                                                    Months with
                         Account          no collection           Amount ($)            Account          no collection          Amount ($)
                                             efforts                                                        efforts
                       5140610                  22*               911,549.71            5131488                 48              461,276.68
                       5189607                    7               769,486.11            5202012                  7              350,110.78
                       5196924                    7               622,101.32            5192596                  9              346,578.61
                       5161135                  12*               520,325.25            5156424                 31              357,978.29
                       5182568                    6               487,138.65            5131430                 22*             338,511.00
                       5141418                  20*               490,075.95            5160552                 29              345,926.65
                       5164716                  19                433,511.95            5192576                  8*             330,740.05
                       5148999                  26*               417,193.89            5166644                 11              317,984.75
                       5170014                  10                415,170.17            5141379                 47              303,726.08
                       5196867                    7               406,628.85            5143595                 34              303,726.08

                     * Identifies accounts with multiple instances of no collection efforts for 6 months or more. The
                     number in the table identifies the largest period of no collection efforts.

                     For the 20  accounts listed above, 6 to 48  months elapsed between follow-up
                     attempts with either a patient or insurance company. For example, account 5141418
                     had three separate instances of no follow-up for more than 6  months. The patient
                     was discharged on January  10,  2009, with services rendered totaling $490,075.95.
                     The account sat idle at BAMC UBO three different times for approximately 7, 11,
                     and 20 months. On May  16,  2013, BAMC finally transferred the debt to FedDebt5
                     for collection.

                     	4	
                      We used 6 months as the cut-off for timely collection efforts. This would allow time to account for mailings, insurance
                      reviews, and other correspondence that may take time.
                  	5	
                      FedDebt is an online comprehensive debt management system that allows the UBO staff to directly upload delinquent
                      claims for debts as low as $25.
6 │ DODIG-2014-101
                                                                                               Finding



System Needed to Manage and Prioritize Delinquent
Medical Service Accounts
BAMC UBO management did not have a system in place to prioritize MSAs or alert
clerks when an MSA was due for follow-up.         As new accounts were processed,
the system was not able to manage or prioritize the aging MSAs within the system
to alert the clerks of delinquent accounts requiring attention.      Therefore, BAMC
personnel were unable to take prompt and aggressive action to recover and collect
debts owed to DoD and to pursue continuing follow-up actions, as necessary, to
ensure that DoD collects debts owed.

The BAMC UBO Chief said the billing tools were not sufficient and he did not
have oversight of the tens of thousands of MSAs at BAMC.             In March 2014,
MEDCOM personnel stated the MSA billing system consisted of three separate aged
systems, along with spreadsheets and typewriters.      These systems have a limited
ability to support follow-up actions, if at all, and have not kept up with the industry
standard. MEDCOM UBO personnel said a contract was awarded for a new system,
but this system was not expected to be implemented until September  30,  2014.
Without a system or process to notify BAMC UBO staff of MSAs requiring
follow-up, BAMC UBO will continue to have delinquent MSAs and risk missing the
opportunity to collect on the $73.1  million in delinquent MSAs. BAMC management
should validate that the planned medical billing system will prioritize delinquent
claims requiring follow-up and alert the clerks to perform follow-up, while
also reviewing, researching and pursuing collection on the remaining open
delinquent MSAs.


Patient Data Needed Before Discharge
BAMC management did not enforce existing guidance requiring the collection of
accurate patient data before discharge. DoD  6010.15-M requires BAMC to capture
patients’ other health insurance data, credit card information, and other applicable
means of reimbursement for health care services immediately upon outpatient
visit or inpatient admission.   BAMC personnel did not always require patients to
provide complete and accurate personal data before discharge.        This contributed
to the ineffective control of delinquent MSAs.




                                                                                      DODIG-2014-101 │ 7
Finding



                 Brooke Army Medical Center Memorandum  40-67 requires all civilian trauma
                 admitted patients to checkout through the Admissions and Dispositions (A&D) Office.
                 BAMC UBO and Patient Administration Division  (PAD) A&D
                 personnel did not always obtain complete and accurate
                 patient information before discharge.        Patient data           BAMC UBO
                                                                                     and Patient
                 collection at SAMMC can occur at multiple points
                                                                                   Administration
                 from patient admission to patient discharge. Both              Division (PAD) A&D
                 the BAMC UBO Chief and a representative of                   personnel did not always
                 MEDCOM UBO acknowledged a breakdown in the                     obtain complete and
                                                                                   accurate patient
                 collection of accurate information.       BAMC UBO              information before
                 personnel provided limited evidence of attempts to                   discharge.
                 collect insurance, credit card, or other information
                 before discharge.

                 The Chief of PAD stated that it is PAD A&D personnel’s responsibility to collect
                 accurate demographic information and they should attempt to collect the
                 personal information once a patient is admitted for inpatient treatment.           Other
                 PAD staff said they attempted to collect some information after the patient was
                 admitted and receiving care, but a previous commander implemented a practice
                 to provide a “hassle-free disposition.”       They explained this policy prevented a
                 final face-to-face meeting with the patient before discharge, and therefore missed
                 opportunities to improve collections.

                 During our MSA review, BAMC UBO personnel identified an example of poor data
                 collection and its impact.    SAMMC discharged a patient on September  5,  2012,
                 for account 5202012, valued at $350,110.78.             BAMC UBO personnel stated
                 the patient provided no social security number and had no health insurance
                 information.    BAMC staff was unable to obtain a signed DD Form  2569, “Third
                 Party   Collection   Program/Medical    Services    Account/Other    Health   Insurance.”
                 On October  26,  2012, the patient’s bill was returned as unclaimed and unable
                 to forward.     Without a valid mailing address, BAMC UBO staff was unsuccessful
                 in sending a follow-up letter about the delinquent debt.             On May  15,  2013,
                 after 252 days, BAMC staff transferred the debt to FedDebt for their attempt to
                 identify the patient and collect on the $350,110.78 debt.

                 BAMC     personnel     said   a   revision     to   Brooke    Army     Medical     Center
                 Memorandum  40-67 will require patients to check out with PAD A&D before
                 discharge.     However, the prior version of Memorandum  40-67 already required
                 civilian trauma patients to check out with PAD A&D before discharge.             The DoD



8 │ DODIG-2014-101
                                                                                                   Finding



UBO manual requires UBO to collect payment information.              BAMC management
should establish procedures to validate that staff collect complete demographic
and billing information before patient discharge.


Patients Set Payment Terms Contrary to
DoD Regulation
Contrary to DoD regulation, BAMC UBO management allowed patients to set the
payment terms for services rendered for two delinquent MSAs, valued at $831,822.86.
The DoD FMR requires the Debt Collection Office to base decisions to accept
installment payments on a review of the debtor’s financial statements or verification
of the debtor’s financial position. In addition to the financial position requirements,
debtors must pay at least $50  each month and must pay off the debt within
3 years or less, except when a debtor can prove financial hardship or other
reasonable causes exist.

BAMC UBO management did not review the debtor’s
financial statements or verify the debtor’s financial                BAMC UBO
position in either of the two installment payments                  management
                                                                allowed the patients
accounts.       Instead, BAMC UBO management
                                                             to set their own payment
allowed the patients to set their own payment                    terms, resulting in
terms, resulting in installment plans of less than            installment plans of less
$50  per month and repayment of the debt to                   than $50 per month and
                                                             repayment of the debt to
exceed 1,000  years.    Table  2 shows the original             exceed 1,000 years.
balance, payment plans, and auditor-determined
payoff period accepted by BAMC UBO.

Table 2. Medical Service Accounts with Non-Complying Installment Plans
                                                                Auditor Determined Pay
                                            Installment
      Account          Original Balance                            Estimated Payoff
                                          Amount (monthly)          (as of 8/19/14)
 5172251                $416,652.69            $25.00                 1,387 years
 5170014                $415,170.17            $20.00                 1,729 years


BAMC personnel did not have signed payment plans in the account files showing
that BAMC entered into a legally enforceable agreement with the debtors.             These
debtors could have been experiencing financial hardship that would prevent
BAMC from collecting the full original balance; however, BAMC UBO personnel did
not complete verification of the debtors’ financial position nor establish other




                                                                                          DODIG-2014-101 │ 9
Finding



                 reasonable causes to support payment plans that deviated from the standard terms
                 required by DoD regulation.                        BAMC UBO management should review, research,
                 and determine whether other installment plans for delinquent MSAs comply with
                 DoD regulation.


                 Additional Oversight Needed for Medicaid
                 Reimbursements
                 BAMC UBO and MEDCOM management did not provide
                                                                                                                    For
                 sufficient         oversight          of        Medicaid-eligible          MSAs
                                                                                                                  14 of 25
                 submitted to the TMHP. BAMC UBO and MEDCOM                                                   delinquent MSAs
                 management did not adequately pursue collection                                              reviewed, BAMC
                 for      denied       claims       or      raise     the     concern        of             incurred $6.5 million
                                                                                                           in delinquent debt for
                 reimbursement levels to ASD(HA) for assistance.
                                                                                                           unreimbursed services
                 For 14 of 25  delinquent MSAs reviewed, BAMC                                                provided to TMHP
                 incurred         $6.5  million             in     delinquent        debt      for              beneficiaries.
                 unreimbursed services provided to TMHP beneficiaries.


                 Medicaid Claims Denied for Missing 95-Day Filing Window
                 TMHP denied claims for 6 of the 14 MSAs reviewed, for missing its 95-day filing
                 deadline.6         TMHP requires providers to file all claims within 95 days of patient
                 discharge.          The six claims were valued at $3.1  million.                            BAMC UBO management
                 noted that SAMMC is not a registered TMHP provider, and these patients had to
                 receive care because of their emergency-related conditions.                                        They further noted
                 other insurance providers process claims within 1  year of discharge.                                             Of the six
                 denied claims, only two account files contained evidence that BAMC personnel
                 sent a letter to TMHP officials disputing the denial; however, each was unsuccessful
                 in overturning the denial.                      The other four account files contained only the denial
                 for missing the TMHP 95-day filing requirement.                                      See Table  3 for the claims
                 TMHP denied, the length of time it took BAMC personnel to file the MSA, and
                 whether the account files contained a BAMC dispute letter.




                 	6	
                       Texas Medicaid Provider Procedures Manual, Volume 1, Section 6: “Claims Filing,” states that claims must be received by
                       TMHP within 95 days from each date of service (DOS). Although exceptions to the filing deadline exist, none is identified
                       for care provided by military hospitals.




10 │ DODIG-2014-101
                                                                                                    Finding



Table 3. Medicaid 95-Day Denied Medical Service Accounts
          Account         Original Charge        Days to File       Letter sent to TMHP
 5189607                    $769,486.11              171                    No
 5196924                      622,101.32             185                    No
 5161135                      520,325.25             104                    Yes
 5164716                      433,511.95             215                    No
 5148999                      417,193.89             154                    No
 5143595                      303,726.08             171                    Yes
  Total                    $3,066,344.60


BAMC UBO management did not track or adequately pursue the MSAs denied by
TMHP.       BAMC UBO personnel alerted MEDCOM about the denials as early as
August  2009. In response, MEDCOM personnel provided BAMC a dispute letter to
send to TMHP to challenge the denials.      This was the only action MEDCOM took
to assist BAMC with the 95-day denials from TMHP.               The letter stated that
as a Uniformed Service with DoD, and based on Federal law and regulations,
TMHP has a statutory obligation to reimburse reasonable charges to the
U.S. Government for healthcare services provided to the patient and BAMC had
6  years and 6  months to file action on a claim. See Appendix  B for an example of
this letter.   However, BAMC UBO management did not: send the letter for every
denial received, track all the denials by recording the number of claims and
dollar value denied, assess the ineffectiveness of the dispute letter and seek
further assistance from MEDCOM, and continue challenging the denials to receive
reimbursement for the services rendered to a TMHP beneficiary.

BAMC UBO management was unable to resolve the denied reimbursements directly
with TMHP. As of May  2014, all six of these accounts were transferred to MEDCOM
to be recorded as uncollectible.

To adequately pursue collection for these denied claims, BAMC UBO management
should request MEDCOM review the dispute letter again to ensure the letter
reflects the position of the Army in receiving reimbursement for TMHP beneficiaries.
Once approved by MEDCOM, BAMC UBO Management should submit the dispute
letter for each claim denied for missing the 95-day filing requirement and track
the number of denied claims from TMHP to provide this information to MEDCOM
to show the effect of these denials. In addition, MEDCOM should assess whether
further actions can be taken to address the TMHP 95-day filing requirement and
elevate these concerns to ASD(HA) to resolve with the Department of Health and
Human Services.


                                                                                          DODIG-2014-101 │ 11
Finding



                 BAMC Management Believed Medicaid Reimbursements
                 Were Low
                 BAMC management stated that they require increased TMHP reimbursement
                 for services rendered to TMHP beneficiaries to resolve these debts.        Of 14  MSAs
                 reviewed, TMHP processed 8, valued at $3.5  million.         BAMC received a payment
                 of only $252,000, or 7.3  percent in reimbursement, for the $3.5  million in services
                 provided. TMHP disallowed $853,000 from the total $3.5  million for services not
                 covered by TMHP. The remaining $2.4 million was the balance TMHP determined
                 the patients were responsible for, as these costs were incurred outside of the
                 TMHP-established covered time period.             BAMC personnel believed that the
                 reimbursement levels from TMHP were very low. When BAMC personnel contacted
                 TMHP about the low levels of reimbursement, TMHP
                 personnel stated that they pay claims at their established
                 reimbursement rates and any increase in payments
                                                                                   BAMC received
                 would require a change in legislation. We contacted                a payment of
                 TMHP several times to discuss this matter, as well                only $252,000,
                 as the denial of claims based on the 95-day filing               or 7.3 percent in
                                                                                reimbursement, for
                 requirement; however, we were unsuccessful in                   the $3.5 million in
                 receiving comments from TMHP.             Table  4 shows        services provided.
                 TMHP processed claims, the reimbursed amount,
                 the disallowed portion of the claim, and each patient’s
                 balance owed.

                 Table 4. Reimbursement Level for TMHP MSAs
                                   Original                      Percent                    Owed by
                       Account                   Reimbursed                 Disallowed
                                   Charge                      Reimbursed                   Patients
                      5189728     $ 364,239.48    $31,966.44      8.78      $119,800.08      $212,472.96
                      5172251      540,411.09      51,871.60      9.60         71,886.80      416,652.69
                      5182568      487,138.65      27,183.33      5.58        117,521.67      342,433.65
                      5141418      490,075.95      35,816.21      7.31        131,255.42      323,004.32
                      5198328      421,072.66      11,326.22      2.69         69,649.76      340,096.68
                      5131488      461,276.68      67,468.72     14.63        101,860.46      291,947.50
                      5156424      357,978.29      15,091.21      4.22        117,493.09      225,393.99
                      5160552      345,926.65      11,279.60      3.26        123,497.20      211,149.85
                       Totals    $3,468,119.45   $252,003.33      7.27      $852,964.48    $2,363,151.64




12 │ DODIG-2014-101
                                                                                              Finding



To adequately pursue collection and attempt to receive a higher reimbursement,
BAMC UBO management should track the number of paid claims from TMHP;
identify the reimbursed amounts, the disallowed amounts, and the amounts owed
by the patients; provide this information to MEDCOM to show the impact; and
request direction on a course of action to eliminate the debt.

ASD(HA) Management Control and Financial Studies personnel agreed that it would
be appropriate for ASD(HA) to attempt to resolve the problems with low Medicaid
reimbursements and denials over the 95  day deadline.            ASD(HA) should meet
with the Department of Health and Human Services to discuss the difficulties
BAMC encountered with TMHP about denied claims and reimbursement levels.


FedDebt Administrative Wage Garnishment Tool
MEDCOM did not require the use of the administrative wage garnishment tool
within FedDebt. FedDebt is an online comprehensive debt management system that
allows the UBO staff to directly upload delinquent claims for debts as low as $25. 
The system provides real-time visibility into the debt collection efforts and enables
military MTF personnel to expedite processing. FedDebt regularly uses three tools
to collect debts: payment agreements, administrative wage garnishment, and
Treasury offset.    Administrative wage garnishment is a debt collection process
that allows a Federal agency to order a non-Federal employer to withhold up to
15  percent of an employee’s disposable income to pay a nontax delinquent debt owed
to the agency.     Upon implementation of FedDebt, MEDCOM management decided
not to use wage garnishment at the military MTFs. MEDCOM management did not
believe the funds collected through administrative wage garnishment would be
worth the administrative hurdles they believed were necessary to implement
the wage garnishment tool.         For example, MEDCOM management incorrectly
believed they had to provide debtor employment information to FedDebt. However,
FedDebt handles the research necessary to begin administrative wage garnishment.
MEDCOM should use all collection tools available through the FedDebt program
at BAMC and all other military MTF locations.




                                                                                    DODIG-2014-101 │ 13
Finding



                 Management Corrective Actions
                 During the course of the audit, BAMC UBO management took the following actions,
                 as they relate to the 25 MSAs reviewed, to collect on existing debt:

                          •	 notified two patients that the payment plans do not comply with DoD
                             regulation, and required new, conforming payment plans;

                          •	 transferred $553,593.60 of delinquent debt to FedDebt for collection;

                          •	 transferred $534,705.56 of delinquent debt to MEDCOM for write-off;

                          •	 billed a patient for the unpaid balance of $346,578.61;

                          •	 sent a second letter to a patient requesting the remaining delinquent
                             balance owed of $225,393.99;

                          •	 appealed an insurance denial for the balance owed of $390,035.96; and

                          •	 revised local policy (currently in draft) on civilian patient hospital
                             discharge processes to help enforce currently required procedures.

                 While these actions are commendable and noteworthy, thousands of other MSAs
                 remain outstanding and may have similar issues that need to be resolved to improve
                 overall collection efforts.


                 Conclusion
                 BAMC UBO management missed opportunities to maximize collections against the
                 approximately $10.4  million in delinquent payments due on 24 of the 25 highest
                 dollar MSAs. These funds could have been applied to other valid requirements such
                 as administrative, operating, and equipment costs; readiness training; or trauma
                 consortium activities. The Army provided $6.5  million of the $10.4  million in medical
                 services to beneficiaries of the TMHP, while receiving $252,000 in reimbursed
                 payments.     Unless BAMC improves collection procedures and takes prompt and
                 aggressive actions to pursue and attempt collection of the delinquent debt among
                 the MSAs reviewed, and the $62.5 million in the thousands of other delinquent
                 MSAs, BAMC UBO will continue to incur rising delinquent balances for future
                 MSAs (See Appendix D for details on potential monetary benefits).




14 │ DODIG-2014-101
                                                                                                Finding



Management Comments on the Finding and
Our Response
U.S. Army Medical Command Comments
The Chief of Staff, MEDCOM, stated that outstanding debts are approximately
20  percent of the workload conducted in the BAMC UBO and current accounts
receivable or accounts closed within 180 days were not sampled for this report.
According to the Chief of Staff, of the 25 claims sampled, 12 were transferred to
MEDCOM and/or the U.S. Treasury before the audit, two were on hold due to legal
proceedings, and three were awaiting guidance from MEDCOM UBO regarding
financial assessments.

The Chief of Staff reiterated that our report stated BAMC missed opportunities to
collect approximately $10.4  million by not transferring the aged claims to Treasury
following the 180  day due processing period. He stated that of the $10.4  million,
$5.2  million was not eligible for collection due to limitations on transferring Crime
Victims’ Compensation, worker’s compensation, Medicaid, and other Federal
accounts receivable. He also stated that of the $5.2  million eligible for transfer to
Treasury, $2.3  million was sent to Treasury before the site visit in August  2013, and
of the $32  million collected by BAMC during FY  2014, only $800,000 was received
through Treasury collections.

The Chief of Staff, MEDCOM, acknowledged our identification of internal control
weaknesses and stated that actions taken in response to the recommendations
should correct these weaknesses.


Our Response
The objective of our audit was to determine whether the military MTFs properly
managed accounts that were more than 180  days delinquent by transferring the
debt to U.S. Treasury or by actively pursuing collection. Therefore, we did not
sample any current accounts receivable or those closed within 180  days because
they were outside of the scope of the audit. While we acknowledge that there were
claims transferred to MEDCOM or U.S. Treasury, according to the data provided
by MEDCOM on May  29,  2013, all of the claims we reviewed still had an outstanding
debt to be transferred to FedDebt or collected.      MEDCOM later confirmed there
were only two claims instead of three awaiting guidance from MEDCOM.




                                                                                      DODIG-2014-101 │ 15
Finding



                 We recognize that BAMC transferred portions of some claims to Treasury before
                 our site visit in August  2013.   However, those claims were already more than
                 180 days delinquent when they were sent to U.S. Treasury for collection.       Our
                 recommendations should help increase collections at BAMC and decrease the
                 portion of claims that are ineligible for reimbursement.          For example, if
                 BAMC is able to identify and file claims promptly with TMHP, it is more likely
                 that a portion of the claim will be reimbursed instead of BAMC writing the entire
                 claim off to MEDCOM for missing the TMHP filing deadline.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 1
                 We recommend that the Commander, Brooke Army Medical Center:

                         a.	Validate that the planned medical billing system will prioritize
                           delinquent medical service accounts and alert the clerks as to which
                           accounts require follow-up.

                 U.S. Army Medical Command Comments
                 The Chief of Staff, MEDCOM, responding for the Commander, BAMC, agreed with
                 the intent of the recommendation, stating that MEDCOM UBO will validate that the
                 planned medical billing system will prioritize delinquent MSAs and alert clerks
                 regarding accounts requiring follow up. He stated that MEDCOM plans to validate
                 the system requirement by January 1, 2015.


                 Our Response
                 Comments from the Chief of Staff, MEDCOM, addressed all specifics of the
                 recommendation, and no further comments are required.

                         b.	Review, research, and pursue collections on the remaining open
                           delinquent medical service accounts.

                 U.S. Army Medical Command Comments
                 The Chief of Staff, MEDCOM, responding for the Commander, BAMC, agreed, stating
                 that BAMC UBO reassigned two MSA clerks to exclusively work aged accounts to
                 process and transfer them within 18 months.       He also stated that BAMC UBO
                 is also working to hire additional MSA clerks to mitigate current claims from aging




16 │ DODIG-2014-101
                                                                                           Finding



into the 180-day backlog.   He stated that MEDCOM plans to complete processing
and transferring the backlog by January  1,  2016.   The Chief of Staff, MEDCOM,
also expressed concern that in order to transfer debt for patients requesting debt
compromise, Treasury requires a financial assessment before transfer.    However,
BAMC UBO does not have the staff or expertise to conduct these financial
assessments.   According to the Chief of Staff, MEDCOM UBO is seeking additional
guidance on how to proceed with these claims.


Our Response
Comments from the Chief of Staff, MEDCOM, addressed all specifics of the
recommendation, and no further comments are required.

        c.	Establish procedures to validate that staff collect accurate and
           complete demographic and billing patient information before
           patient discharge.

U.S. Army Medical Command Comments
The Chief of Staff, MEDCOM, responding for the Commander, BAMC, agreed, stating
that BAMC Patient Administration Division created an interdisciplinary working
group to evaluate Admissions and Dispositions processes.          He stated that
Texas A&M University will provide a report based on a project focused on capture
of the DD  Form  2569 within BAMC to assist the working group.     Also, according
to the Chief of Staff, a Lean Six Sigma Black Belt project will review the patient
discharge process and improvements will be incorporated into a revised Admissions
and Dispositions policy memo. He stated that MEDCOM will complete these actions
by January 1, 2015.


Our Response
Comments from the Chief of Staff, MEDCOM, addressed all specifics of the
recommendation, and no further comments are required.

        d.	Review, research, and determine whether other repayment installment
           plans arranged by the Uniform Business Office are sufficient or in
           need of revisions to comply with DoD Financial Management
           Regulation, volume 5, chapter 28.




                                                                                 DODIG-2014-101 │ 17
Finding



                 U.S. Army Medical Command Comments
                 The Chief of Staff, MEDCOM, responding for the Commander, BAMC, agreed, stating
                 that BAMC UBO identified 413 accounts with payment plans not in compliance
                 with DoD FMR.     He stated that BAMC UBO is sending letters to account holders
                 outlining new payment terms and deadlines and allowing 30 days to respond
                 to the notices.      MEDCOM expects to complete the new payment plans by
                 September 1, 2014.


                 Our Response
                 Comments from the Chief of Staff, MEDCOM, addressed all specifics of the
                 recommendation, and no further comments are required.

                         e.	Request U.S. Army Medical Command review the dispute letter to
                            ensure the letter best reflects the position of the Army in receiving
                            reimbursement for medical services provided to Texas Medicaid
                            Healthcare Partnership beneficiaries.

                 U.S. Army Medical Command Comments
                 The Chief of Staff, MEDCOM, responding for the Commander, BAMC, agreed, stating
                 that BAMC requested a MEDCOM legal review of the dispute letter and dispute
                 procedures. MEDCOM expects to complete the review by August 1, 2014.


                 Our Response
                 Comments from the Chief of Staff, MEDCOM, addressed all specifics of the
                 recommendation, and no further comments are required.

                         f.	Send dispute letters to Texas Medicaid and Healthcare Partnership
                            for all claims denied for missing the 95-day filing requirement.

                 U.S. Army Medical Command Comments
                 The Chief of Staff, MEDCOM, responding for the Commander, BAMC, agreed, stating that
                 BAMC UBO staff is reviewing all TMHP claims to determine the total number of claims
                 outside the 95-day filing deadline and to ensure a dispute letter was sent to appeal
                 the denial. He stated that on a monthly basis, all denied claims will be forwarded to
                 MEDCOM UBO for review. MEDCOM expects to send all letters by July 15, 2014. As of
                 August 7, 2014, MEDCOM personnel stated it is in the process of mailing dispute letters
                 to TMHP for all claims denied for missing the 95-day filing requirement.




18 │ DODIG-2014-101
                                                                                           Finding



Our Response
Comments from the Chief of Staff, MEDCOM, addressed all specifics of the
recommendation, and no further comments are required.

        g.	Provide U.S. Army Medical Command all the Medicaid-eligible claims
            denied by Texas Medicaid Health Partnership for missing the 95-day
            filing requirement to identify the value and impact of those claims to
            Brooke Army Medical Center.

U.S. Army Medical Command Comments
The Chief of Staff, MEDCOM, responding for the Commander, BAMC, agreed, stating
that BAMC UBO is identifying and copying all claims denied due to the TMHP 95-day
filing deadline and will deliver them to the MEDCOM UBO by October 1, 2014.


Our Response
Comments from the Chief of Staff, MEDCOM, addressed all specifics of the
recommendation, and no further comments are required.

        h.	
          Provide U.S. Army Medical Command all the Medicaid-eligible
            claims processed and paid by Texas Medicaid Health Partnership to
            identify the reimbursed and disallowed amounts, the amounts the
            beneficiaries now are responsible to pay, and request direction on a
            course of action to eliminate the debt.

U.S. Army Medical Command Comments
The Chief of Staff, MEDCOM, responding for the Commander, BAMC, agreed,
stating that BAMC UBO is identifying and copying all claims reimbursed or
disallowed by TMHP and will deliver them to MEDCOM UBO by October  1,  2014.
He stated that in cases where TMHP beneficiaries request a compromise of the
portion of debt they are responsible for, BAMC UBO is requesting additional
guidance from MEDCOM UBO for the processing and elimination of debt. MEDCOM
expects to complete the actions by July  15,  2014.       As of August 7, 2014,
MEDCOM personnel stated BAMC provided them with information related to the
Medicaid-eligible claims processed and paid by the TMHP and requested direction
on how to eliminate the debt.     MEDCOM personnel also stated MEDCOM subject
matter experts met with Texas Medicaid officials to discuss reimbursement
issues and will continue to work with personnel to determine how to eliminate
the debt.




                                                                                 DODIG-2014-101 │ 19
Finding



                 Our Response
                 Comments from the Chief of Staff, MEDCOM, addressed all specifics of the
                 recommendation, and no further comments are required.


                 Recommendation 2
                 We recommend that the Chief of Staff, U.S. Army Medical Command:

                         a.	Coordinate with the Assistant Secretary of Defense (Health Affairs)
                            to discuss the reimbursement issues about denied claims and
                            reimbursement rates for services provided to Texas Medicaid and
                            Healthcare Partnership beneficiaries and assess whether further
                            actions can be taken to address the Texas Medicaid and Healthcare
                            Partnership 95-day filing requirement.

                 U.S. Army Medical Command Comments
                 The Chief of Staff, U.S. Army MEDCOM, agreed, stating that the Army UBO requested
                 assistance from the Defense Health Agency UBO during a quarterly Advisory
                 Workgroup in February  2014.       He stated that Army UBO indicated it receives
                 numerous Medicaid denials based on missing filing deadlines and the UBO frequently
                 receives Medicaid information after the deadline for filing has passed.   According
                 to the Chief of Staff, other Service personnel noted similar issues during the
                 Workgroup meeting in obtaining Medicaid information from patients before filing
                 deadlines have passed.    He stated that the Services advised the Defense Health
                 Agency UBO that they would prefer to bill Medicaid patients directly.


                 Our Response
                 Comments from the Chief of Staff, MEDCOM, addressed all specifics of the
                 recommendation, and no further comments are required.

                         b.	Implement the FedDebt administrative wage garnishment tool
                            within Brooke Army Medical Center and other Army military
                            medical treatment facilities to increase collections.

                 U.S. Army Medical Command Comments
                 The Chief of Staff, U.S. Army MEDCOM, agreed with the intent of the
                 recommendation, stating there is no certainty that implementing the wage
                 garnishment tool will result in significant gains and could create additional
                 workload that UBO personnel cannot assume.            He stated that MEDCOM will



20 │ DODIG-2014-101
                                                                                                  Finding



develop a plan to implement wage garnishment on a test basis at pilot sites
by October  1,  2014, and the pilot sites will begin using the wage garnishment
tool by January  1,  2015.       Further, he stated that MEDCOM will continue
implementation at additional sites if collections increase as a result and
additional workload can be absorbed with existing resources.


Our Response
Comments from the Chief of Staff, MEDCOM, addressed all specifics of the
recommendation, and no further comments are required.


Recommendation 3
We recommend that the Assistant Secretary of Defense (Health Affairs) meet with
Department of Health and Human Services to discuss difficulties Brooke Army
Medical Center has encountered with denied claims and reimbursement levels
from the Texas Medicaid and Healthcare Partnership.


Assistant Secretary of Defense (Health Affairs) Comments
The Assistant Secretary of Defense (Health Affairs) agreed, stating that his office will
meet with the Department of Health and Human Services to discuss difficulties BAMC
has encountered with TMHP. His office will provide specific information to the DoDIG
about the meetings once they have been held.


Our Response
Comments from the Assistant Secretary of Defense (Health Affairs) addressed all
specifics of the recommendation, and no further comments are required.


Management Comments on Potential Monetary
Benefits and Our Response
U.S. Army Medical Command Comments
The Chief of Staff, MEDCOM, did not agree with the potential monetary benefits
identified, stating the $73.1  million identified is overstated as it is the full billing
amount. The Chief of Staff indicated that offset costs, to include direct or indirect
costs incurred in implementing the action, should be considered in computing
the potential collections.   He stated that these costs should include implementing
the Armed Forces Billing and Collection Utilization Solution and adding staff to
manage the workload.



                                                                                        DODIG-2014-101 │ 21
Finding



                 The Chief of Staff stated that in the past year, MEDCOM has transferred more
                 than $50  million to the U.S. Treasury and collected about $2.25  million, or about
                 5  percent.   He stated that the 5  percent rate was more reasonable to calculate
                 the monetary benefits.     In addition, he suggested associating the savings with
                 Recommendation 1.b.


                 Our Response
                 The full billing amount or original charge for the 15,106  MSAs more than 180  days
                 delinquent totaled $92.2  million. The $73.1  million in potential monetary benefits
                 was derived from the outstanding balance on the universe of 15,106  MSAs, based
                 on the data provided by MEDCOM on May  29,  2013. Although MEDCOM has only
                 seen a 5  percent return of monetary benefits from the FedDebt program, until
                 the U.S. Treasury compromises the debt, it is considered potentially collectible.
                 There are potentially thousands of delinquent MSAs that BAMC could transfer to
                 FedDebt that may increase the collection percentage further. In addition, MEDCOM
                 appears to have only included the amount collected from the Treasury FedDebt
                 program, which is not representative of all MSA debt.      The potential monetary
                 benefits must include collections from all available methods, including insurance,
                 Medicaid, and patient payments.         By reviewing and researching the claims,
                 BAMC may be able to collect through proper due process and management of the
                 MSAs and would not have to send the debt to FedDebt at all.       Therefore, we do
                 not agree that 5  percent of the outstanding balance is a more reasonable basis
                 for calculating potential monetary benefits.

                 We request that the Chief of Staff, MEDCOM, provide support for the collection
                 sources that comprise the 5  percent collection rate, including proposed offsets,
                 and reconsider his position on the potential monetary benefits.     We agree with
                 the Chief of Staff’s recommendation and changed the report to associate the
                 potential monetary benefits with Recommendation 1.b.




22 │ DODIG-2014-101
                                                                                        Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit from July  2013 through May  2014 in
accordance with generally accepted government auditing standards.             Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective.      We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our
audit objective.


Review of Documentation and Interviews
We interviewed personnel from the Office of the Under Secretary of Defense
(Comptroller), Assistant Secretary of Defense for Health Affairs, Defense Finance
and Accounting Services Debt Collection Management Office, MEDCOM, BAMC, and
the U.S. Treasury Financial Management Services to obtain information and source
documentation on delinquent MSA debt and collection efforts at BAMC.         During
the site visits to BAMC and MEDCOM, we observed daily procedures performed
by personnel and examined key documents related to the audit objective.

We obtained, reviewed, and analyzed Federal, DoD, Army, and local guidance, related
to delinquent MSA debt and collection efforts at BAMC. We focused our review on:

         •	 Public Law 104-134, section 31001, “Debt Collection Improvement Act
            of 1996”;

         •	 DoD Financial Management Regulation Volume 5, Chapter 28, “General
            Provisions of Indebtedness,” November 2012;

         •	 DoD 6010.15-M "Military Treatment Facility Uniform Business Office
            Manual," November 2006; and

         •	 Brooke Army Medical Center Memorandum 40-67, “Medical Services
            Admission and Disposition of Patients,” April 27, 2011.

We compared actions performed by personnel at MEDCOM and BAMC UBO, to the
Federal, DoD, Army, and local regulations.




                                                                                   DODIG-2014-101 │ 23
Appendixes



                 Our review included BAMC MSAs that were open for more than 180  days
                 between September  2003 and October  2012. Those MSAs represented a universe
                 of 15,106  accounts, valued at $73.1  million, that were more than 180  days old.
                 According to Department of Army Form 3154, payment of the bill is due upon receipt.
                 If payment is not received for the debt within 30  days of hospital discharge or
                 outpatient date of service, the account is subject to referral to higher authority
                 for collection action. We considered these MSAs delinquent, as the balance owed
                 to BAMC had not yet been paid in full after 180  days from date of discharge
                 by the time we received the data from MEDCOM. We then non-statistically selected
                 the top 25  MSAs based on highest outstanding balances, valued at $10.9  million.
                 For the 25  MSAs we reviewed, we identified the current state of the delinquent
                 MSA debt at BAMC during our site visit in August  2013. We compared the MSA
                 to applicable Federal, DoD, and local Army guidance to determine compliance
                 related to collection efforts. We did not review each claim for complete compliance
                 with Treasury Regulations regarding whether the MSA was eligible for transfer to
                 the Treasury.


                 Use of Computer-Processed Data
                 We relied on computer-processed data to support our findings and conclusions.
                 Specifically, we relied on managements’ summary level delinquent MSA data from
                 the Composite Health Care System to select 25 delinquent MSAs with the highest
                 outstanding balance.  

                 To assess the reliability of the outstanding balances we compared the amount
                 owed for all 25 MSAs to the medical procedure documentation, patient information,
                 hospital generated bills, staff notes and documentation on attempted collections,
                 and delinquent letters and other types of patient contact for collection.  We found
                 no errors with those balances.  Based on this information, we determined that
                 the data were sufficiently reliable for the purposes of this report.


                 Use of Technical Assistance
                 The Quantitative Methods Division reviewed audit documents and advised us on
                 the validity of the non-statistical sample selected.


                 Prior Coverage
                 During the last 5  years, the Army Audit Agency and Air Force Audit Agency
                 issued   four   reports   discussing   difficulty   in   obtaining     reimbursements   for



24 │ DODIG-2014-101
                                                                                         Appendixes



services rendered.    Unrestricted Army reports can be accessed on the Internet at
https://www.aaa.army.mil/.   Air Force Audit Agency reports can be accessed on the
Internet at https://www.efoia.af.mil/palMain.aspx by those filling out the Freedom of
Information Act form.


Army
A-2012-0032-IEM, “Follow-up Audit of Trauma Services Cooperative Agreement
Brooke Army Medical Center,” December 20, 2011

A-2009-0061-ALE, “Billing Operations US Army Europe Regional Medical Command,”
March 31, 2009


Air Force
F2012-0001-FB3000, “Services Medical Activity – Air Force: Out of Service Debt,”
October 3, 2011

F2011-0039-FCW000, “Services Medical Activity – Air Force Accounts Receivable
Out-of-Service Debt 88th Air Base Wing Wright-Patterson AFB OH,” July 19, 2011




                                                                                    DODIG-2014-101 │ 25
Appendixes




                 Appendix B
                 Challenge to Medicaid Denials




26 │ DODIG-2014-101
                                              Appendixes



Challenge to Medicaid Denials (cont’d)




                                         DODIG-2014-101 │ 27
Appendixes




                   Appendix C
                   Results of the 25 Medical Service Accounts Reviewed
                                                                           Compliance with    Claim denied
                                           Compliance      Compliance                                                Low
                                                                             DoD FMR V5        by TMHP for
         Account        Original Charge    with Public    with DoD FMR                                         reimbursement
                                                                           Ch 28 regarding    missing 95 day
                                          Law 104-1341      V5 Ch 282                                           rate by TMHP
                                                                            payment plans     requirement3
        5140610            $911,549.71         No               No               N/A
        5189607              769,486.11        No               No               N/A                X
        5196924              622,101.32        No               No               N/A                X
        5153752              571,198.44   Special Case4     Special Case     Special Case
        5161135              520,325.25        No               No               N/A                X
        5172251              540,411.09        No               Yes              No                                 X
        5182568              487,138.65        No               No               N/A                                X
        5141418              490,075.95        No               No               N/A                                X
        5164716              433,511.95        No               No               N/A                X
        5148999              417,193.89        No               No               N/A                X
        5170014              415,170.17        No               No               No
        5198328              421,072.66        No               Yes              N/A                                X
        5196867              406,628.85        No               No               N/A
        5131488              461,276.68        No               No               N/A                                X
        5204029              392,418.94        No               Yes              N/A
        5202012              350,110.78        No               No               N/A
        5192596              346,578.61        No               No               N/A
        5156424              357,978.29        No               No               N/A                                X
        5131430              338,511.00        No               No               N/A
        5160552              345,926.65        No               No               N/A                                X
        5189728              364,239.48        No               Yes              N/A                                X
        5192576              330,740.05        No               No               N/A
        5166644              317,984.75        No               No               N/A
        5141379              303,726.08        No               No               N/A
        5143595              303,726.08        No               No               N/A                X
         Total          $11,219,081.43
                   1
                       Was the debt transferred to the Secretary of Treasury after a delinquent of 180 days?
                   2
                       Was evidence provided showing BAMC UBO management took prompt and aggressive action or
                       performed timely follow-up on the delinquent MSA as required by Financial Management
                       Regulation (FMR)?
                   3
                       Texas Medicaid & Healthcare Partnership (TMHP)
                   4
                       Account 5153752 was a special case, as the patient was involved in an on-going court case.

28 │ DODIG-2014-101
                                                                                                          Appendixes




Appendix D
Potential Monetary Benefits Table
                                                                      Amount of
  Recommendation                     Type of Benefit*                                   Account
                                                                       Benefit
 1.b                    Economy and Efficiency. BAMC collection      Total Benefit,   97 0130 1881
                        of delinquent debts for services rendered    $73.1 million     (DHP O&M)
                        could be used for administrative,
                        operating, and equipment costs;
                        readiness training; or trauma consortium
                        activities.

*Note: Potential monetary benefits are funds put to better use or questioned costs.




                                                                                                     DODIG-2014-101 │ 29
Management Comments




                 Management Comments
                 Assistant Secretary of Defense (Health Affairs)




30 │ DODIG-2014-101
                                                   Management Comments



Assistant Secretary of Defense (Health Affairs) (cont’d)




                                                           DODIG-2014-101 │ 31
Management Comments



                 U.S. Army Medical Command




32 │ DODIG-2014-101
                                     Management Comments



U.S. Army Medical Command (cont’d)




                                           DODIG-2014-101 │ 33
Management Comments



                 U.S. Army Medical Command (cont’d)




34 │ DODIG-2014-101
                                     Management Comments



U.S. Army Medical Command (cont’d)




                                           DODIG-2014-101 │ 35
Management Comments



                 U.S. Army Medical Command (cont’d)




36 │ DODIG-2014-101
                                     Management Comments



U.S. Army Medical Command (cont’d)




                                           DODIG-2014-101 │ 37
Management Comments



                 U.S. Army Medical Command (cont’d)




38 │ DODIG-2014-101
                                                           Acronyms and Abbreviations




Acronyms and Abbreviations
     A&D Admissions and Dispositions
 ASD(HA) Assistant Secretary of Defense (Health Affairs)
   BAMC Brooke Army Medical Center
 DoD FMR DoD Financial Management Regulation
 MEDCOM U.S. Army Medical Command
     MSA Medical Service Account
     MTF Medical Treatment Facility
     PAD Patient Administration Division
  SAMMC San Antonio Military Medical Center
   TMHP Texas Medicaid & Healthcare Partnership
     UBO Uniform Business Office




                                                                      DODIG-2014-101 │ 39
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
